LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 21, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

Jagan Mahadevan v. Prem Bikkina

Dear Sir or Madam:
I hereby certify that at the request of pro se Petitioner, on July 21, 2020, I
caused service to be made pursuant to Rule 29 and the Temporary Order of April 15,
2020, on the following counsel for the Respondent:
RESPONDENT:
Edward Casey
Law Offices of Edward C. Casey Jr.
600 Grand Avenue, Suite 305
Oakland, California 94610
510-251-2300
ed@edcaseylaw.com
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
incerely,

Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My comnrission exp. October 12,2022

W

Sworn and subscribed before me this 21st day of July 2020.

